Report No. DODIG-2013-029             December 5, 2012




   TRICARE Managed Care Support Contractor Program
       Integrity Units Met Contract Requirements
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing at
auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                               December 5, 2012


MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)

SUBJECT: TRICARE Managed Care Support Contractor Program Integrity Units Met
         Contract Requirements (Report No. DODIG-2013-029)

We are providing this report for your information and use. The DoD Office of Inspector General
performed an audit of the TRICARE Managed Care Support Contractor (MCSC) Program
Integrity (PI) Units. The objective of the audit was to determine whether the TRICARE
Managed Care Support Contractor Program Integrity Units were developing and implementing
fraud detection and prevention procedures. Specifically, we determined whether MCSC PI Units
were meeting Government contractual requirements. We found that the MCSCs had dedicated
PI functions that met the TRICARE Operations Manual (TOM) and Government contractual
requirements for preventing and detecting fraud.

DoD’s Managed Health Care Program
TRICARE is DoD’s managed health care program for active duty service members, service
families, retirees and their families, and survivors. TRICARE uses a combination of the
military’s medical treatment facilities and clinics (referred to as direct care) and non-military
network and non-network physicians, hospitals, pharmacies, and suppliers (referred to as
purchased care). The TRICARE Management Activity (TMA) manages the TRICARE program
and the MCSCs administer the purchased care programs. The MCSCs that administer purchased
care medical services are:
    • Health Net Federal Services, Inc. (North Region);
    • Humana Military Healthcare Services, Inc. (South Region);
    • TriWest Healthcare Alliance (West Region); and
    • International SOS (Overseas).

The MCSCs for the North, South, and West regions administer purchased care medical services
for beneficiaries located in the 50 United States and the District of Columbia, while the Overseas
MCSC administers purchased care medical services for beneficiaries located outside the
50 United States and the District of Columbia.

TRICARE Management Activity's Program Integrity Office
The TMA PI Office manages anti-fraud and abuse activities for TMA to protect benefit dollars
and safeguard eligible beneficiaries. The Office’s responsibilities include developing and
executing anti-fraud/abuse policies and procedures, monitoring and providing oversight of
contractor PI activities, and developing cases for criminal fraud/abuse prosecutions and civil
lawsuits. According to TMA PI personnel, they are also responsible for performing site visits to
the MCSCs. During these visits, the MCSC PI units are assessed against the contract
requirements. The TMA reviewer may share their knowledge and lessons learned from visits to

                                                1
other MCSCs. Additionally, TMA PI personnel monitor contractor performance throughout the
year by evaluating the quality of case referrals, performing quarterly assessments, and
monitoring delivery of required work products.

Program Integrity Contractual Requirements
TMA incorporated the requirements of TOM 6010.56-M, Chapter 13, Section 1, “Program
Integrity: General,” February 1, 2008 into the “T-3” 1 MCSC contract and TOM 6010.51-M,
Chapter 14, Section 1, “Program Integrity: General,” August 1, 2002 into the “TNEX” MCSC
contract. Both manuals require the MCSCs to have dedicated PI functions that are responsible
for ensuring that authorized providers provide medically necessary services to eligible
beneficiaries under existing law, regulation, and TMA instructions. The MCSCs are required to
provide quarterly and annual reports to TMA; develop and maintain standard operating
procedures (SOPs) for analyzing cases of potential fraud and abuse; use commercial anti-fraud
software for identification of potential fraud and abuse; refer cases to TMA PI; perform
prepayment reviews; and provide fraud awareness training to providers, beneficiaries and
employees. In addition, the TOM requires the PI units to provide documents, reports,
correspondence, and other applicable data or items as directed by TMA PI or TMA Office of
General Counsel in support of investigations, compliance monitoring, anti-fraud activities, or
other PI related issues.

MCSCs Met Program Integrity Contractual Requirements
In accordance with the “T-3” and “TNEX” contracts, the MCSCs met the PI contractual
requirements. Each of the MCSCs submitted the required quarterly and annual reports;
implemented SOPs for case development; used anti-fraud software; submitted the minimum case
referrals to TMA PI; performed prepayment reviews; and established mandatory fraud and abuse
training.

Reporting
Each of the MCSC PI units properly submitted TOM-required reports to TMA Program Integrity
for 2011. The TOM requires MCSC PI units to submit a Fraud and Abuse Summary Report, and
Utilization Management Report to TMA PI on a quarterly basis. The Fraud and Abuse Summary
Report may list items such as potential fraud and abuse cases, active investigations, beneficiaries
and providers on prepayment review, problem providers, and unbundling activities. The
Utilization Management Report identifies the MCSCs’ activities to prevent under-utilization or
over-utilization of TRICARE services. In addition, the TOM requires the MCSCs to submit a
Letter of Assurance and a Savings Report annually. In 2011, the four MCSCs reported a
combined total of $845 million 2 in savings as a result of disallowed payments to beneficiaries
and providers on prepayment review, identification of other health insurance, software edits,
recoupment, prevention of duplicate claims activities, and other activities that prevented

1
  “T-3” refers to the support contracts that provide health, medical and administrative support services in accordance
with the February 2008 TMA Manuals. “TNEX” refers to the support contracts that provide health, medical and
administrative support services in accordance with the August 2002 TMA Manuals. TMA began transitioning from
the “TNEX” contract to the “T-3” contract in 2009; however, for our review of contract deliverables for 2011, two
MCSCs still fell under the “TNEX” requirements.
2
   We did not audit the quantities or dollar amounts listed in the reports and cannot attest to their accuracy.

                                                          2
erroneous payments. For example, the MCSCs reported a combined $436 million in savings
from the prevention of duplicate claim activities.

Standard Operating Procedures
Each of the MCSC PI units developed the necessary SOPs to meet the TOM requirements for
identifying and developing potential cases of fraud and abuse. The TOM requires MCSC PI
units to develop and maintain SOPs for identifying and developing potential cases of fraud and
abuse. We requested and reviewed copies of the MCSCs’ SOPs for case development. The
MCSC case development SOPs provided instructions on how to identify and develop potential
fraud or abuse cases from internal sources such as processing edits, post-payment and
prepayment reviews, proactive research, and anti-fraud data mining. The case development
SOPs also provided instructions on how to develop potential cases from external sources such as
beneficiary complaints, provider complaints, hotlines, TMA PI requests, law enforcement
referrals, and other sources outside the MCSCs. We did not identify any issues with the MCSC
SOPs for developing potential cases of fraud and abuse.

Use of Commercial Anti-Fraud Software
The MCSC PI units we visited 3 all used commercial anti-fraud software packages as required by
the TOM. The TOM requires that MCSC PI units acquire and make available to PI staff
state-of-the-art commercial anti-fraud software designed to provide on-line manipulation and
analysis of health care data using layered logic and artificial intelligence for fraud detection. By
using the anti-fraud software, TMA expects the MCSCs to identify a minimum of 10 cases a year
and, if warranted, refer them to TMA PI. We observed real-time demonstrations of the
anti-fraud software used by the staff at the sites we visited. As required by the TOM, all the PI
staff members had access to the software and used the software for proactive identification of
potential fraud and abuse.

Referred Cases and Prepayment Review
The MCSC PI units met the TOM requirements for referring cases to TMA PI. The TOM
requires MCSC PI units to refer cases to TMA PI that involve more than a $25,000 loss to the
Government for the “T-3” contract and more than $10,000 for the “TNEX” contract. In addition,
the 2008 TOM requires MCSC PI units to refer cases with any loss where patient harm has
occurred. The “T-3” contract requires contractors to refer a minimum of 10 cases to TMA each
year. There is no minimum requirement for the “TNEX” contract. For 2011, TMA PI reported
that the MCSCs, collectively, submitted 79 cases. 4 When a MCSC develops a case that does not
meet the $25,000 and $10,000 thresholds, they are required to handle the cases internally
(administratively) and are responsible for the resolution of the case. The number of active
administrative cases open at each MCSC can range from hundreds to thousands at any point in
time.




3
  We conducted on-site visits at three of the four MCSCs and two sub-contractors where we verified the use of
anti-fraud software.
4
  We could not determine the total dollar value of the 79 cases because they were law enforcement sensitive.


                                                        3
The MCSCs have several administrative actions they can take. They can:
   • attempt to educate the beneficiary or provider,
   • place the beneficiary or provider on prepayment review, or
   • initiate a recoupment/offset action.

All of the MCSCs were implementing these actions as required by the TOM.

Fraud Awareness Training
Each of the MCSCs had established a mandatory fraud and abuse training program for their PI
units. The TOM requires the MCSCs to develop a formal training program for all contractor
personnel in the detection of potential fraud or abuse situations. In addition to providing the
required fraud and abuse training, the MCSCs also provided other methods of training for their
employees. Some MCSCs used monthly or quarterly e-mails and/or newsletters to increase their
employees’ awareness, while others provided weekly quizzes with incentives for employees to
participate.

The TOM also requires the MCSCs to implement public education programs. The TOM requires
the programs to provide information to providers and beneficiaries about identified fraudulent or
abusive practices and how individuals may identify and report such practices. Some MCSCs
used education letters, customer service centers, informational e-mails, newsletters, handbooks,
and Web sites to provide awareness of fraudulent or abusive practices and how to report such
practices. While the methods of delivery varied, all of the MCSC PI units met the fraud and
abuse education requirements for their employees, providers, and beneficiaries.

MCSC PI Units Met Contractual Requirements
Based on the site visits, observations of MCSCs’ PI processes, review of documents, and
interviews of PI personnel, we concluded that the MCSCs had dedicated PI functions that met
the requirements of the applicable TOMs. The PI units provided the required quarterly and
annual reports and proactively used anti-fraud software to identify potential fraud and abuse.
They also had SOPs for analyzing cases of potential fraud and abuse and met the minimum
requirements for referring cases to TMA. Finally, the MCSCs had developed fraud awareness
training programs and performed prepayment reviews.

Review of Internal Controls
The TRICARE MCSC PI units’ internal controls over meeting Government contractual
requirements were generally effective as they applied to the audit objective.

Audit Scope and Methodology
We conducted this performance audit from May 2012 through October 2012 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.



                                                 4
We reviewed contract compliance for the four regional MCSC PI Units. Those MCSC PI units
included Health Net Federal Services, Inc., PI unit in Rancho Cordova, California; TriWest
Healthcarc Alliance PI unit in Phoenix, Arizona; Humana Military Healthcare Services, Inc., PI
unit in Louisvil le, Kentucky; and International SOS Assistance, Inc., PI unit in Madison,
Wisconsin. In addition to the MCSC PI units, we visited the TMA PI office in Aurora,
Colorado, and the following MCSC claims processors: PGBA PI unit in Myrtle Beach, South
Carolina, and Wisconsin Physicians Serv ice in Madison, Wisconsin. We selected these
contractors because they represented 52 percent of purchased care claims paid in 20 II for
TRICARE beneficiaries. We did not review the dental and pharmacy MCSCs.

We conducted site visits at Health Net Federal Services, Inc., TriWest Healthcare Alliance,
International SOS' subcontractor, Wisconsin Physicians Service and PGBA. We conducted
phone interviews with Humana Military Healthcare Services, Inc. personnel. We interviewed
TMA and MCSC PI personnel, MCSC information technology personnel, and claims processing
personnel. We reviewed PI roles and responsibilities as stated in the TOMs and contracts. We
reviewed the MCSC PI processes and procedures used to prevent and detect fraud. We observed
claims processing edit checks and override procedures. We observed and reviewed the
procedures for implementing and testing edit checks of claims. We observed the use of the
anti-fraud software used to prevent and detect fraud at the MCSC PI units. We reviewed the
processes and procedures used for determining and collecting recoupment. We also reviewed the
process to develop and refer cases and the number of cases referred. We obtained copies of
fraud and abuse training attendance. We reviewed copies of fraud and abuse awareness
newsletters, and screen shots of Web sites. We obtained and reviewed Fraud and Abuse
Summary reports, Utilization Management reports, Letters of Assurance, and Savings reports.
We obtained the previously listed reports; however, we did not audit the quantities or dollar
amounts listed in the reports and cannot attest to their accuracy.

Use of Computer-Processed Data
We did not rely on computer-processed data in developing our findings or conclusions.

Prior Audit Coverage
No prior coverage has been conducted on the subject during the last 5 years.

We appreciate the courtesies extended to the staff. If you have any questions, please contact me
at (703) 604-8866 (DSN 664-8866).




                                                   (d;L;cJ)(!u,~. 0 "
                                                    Alice F. Carey
                                                    Assistant Inspector General
                                                    Readiness, Operations, and Support




                                               5
